CERTIFICATE OF SERVICE
No. TBD
Joan Carol Lipin
Petitioner,
v.
Wisehart Springs Inn, et al
Respondents.
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, 1 depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, 1 served the parties in the above captioned matter with the JOAN
Carol Lipin Petition for Writ OF Certiorari, by mailing one (1) true and correct copy of the same
by Fedex 2-Day, prepaid for delivery to the following addresses.
Mark Apelman
Mark Apelman, Boyle/Apelman P.C.
1660 Lincoln Street
Suite 1510
Denver, CO 80264
(303) 863-8900
mapelman@ba-lawyers.com
Counsel for Wisehart Springs Inn, Arthur D.
Wisehart, in his individual capacity, and in
his capacity as President and “Alter-Ego ” of
Wisehart Springs Inn, Inc., Ellen E. Wisehart,
Richard Hunter Kreycik, and Erin M.
Jameson, and Respondent Rebecca Geyer

Jeffrey L. Driscoll
Williams, Turner & Holmes, P.C.
744 Horizon Court
Suite 115
Grand Junction, CO 81506
(970) 242-6262
Counselfor Debbie Griffith, in her official capacity
as Delta County Assessor

Rebecca W. Geyer
Rebecca W. Geyer & Associates, P.C.
11550 N. Meridian Street
Suite 200
Carmel, IN 46032
(317) 973-0237
Respondent Rebecca Geyer

Clran Seknar
May 28, 2021
SCP Tracking: Lipin-45 East 89th Street-Cover White

